<html>
<title> - LEGISLATIVE HEARING ON H.R. 419, H.R. 2046, AND TWO DRAFT BILLS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
LEGISLATIVE HEARING ON H.R. 419, H.R. 2046, AND TWO DRAFT BILLS 

Wednesday, May 4, 2005

U.S. House of Representatives,
Subcommittee on Economic Opportunity,
Committee on Veterans� Affairs,
Washington, D.C.

The Subcommittee met, pursuant to notice, at 2:20 p.m., in Room 334, 
Cannon House Office Building, Hon. John Boozman [Chairman of the
Subcommittee] presiding.
Present:  Representatives Boozman, Herseth, Brown-Waite, and Evans.

OPENING STATEMENT OF CHAIRMAN BOOZMAN
 
    Mr. Boozman. Let�s go ahead and get started.  I apologize that we are
    getting started late.  On the other hand, it surely worked out, because
    it is better to get started late than the votes interrupt us right in
    the middle, and then go back and forth.  I think it is going to work
    to our advantage. The other thing is I want to apologize.  We have had
    a little confusion over who is going to testify.  Again, like I say, I
    apologize for that  Here I am, I am a new Subcommittee Chairman, and 
    they won�t even give me a gavel.
    [Laughter.]
    Mr. Boozman. The Subcommittee on Economic Opportunity�s first
    legislative hearing will come to order. Today, we are here to receive
    testimony on several pieces of legislation relating to veterans�
    employment.  The proposed legislation we have before us today will
    strengthen the Uniformed Services Employment and Re-Employment Rights
    Act, commonly known as USERRA, to protect veterans� rights regarding
    employer-provided health insurance, improve the Servicemembers� Civil
    Relief Act�s protection against double taxation, reauthorize the
    President�s National Hire Veterans Committee, and finally, to reauthorize
    the Homeless Veterans Re-Integration Act. 
    With the exception of the Civil Relief Act, or USERRA bill, the common
    thing in these bills is jobs for veterans. That�s what we are about.
    You are going to hear us say that a bunch.  Jobs for veterans.
    The USERRA provisions will ensure that a returning veteran can
    re-establish his employer provided health insurance and is protected
    against cost increases.
    The President�s Committee was established to increase the visibility
    of the advantages of hiring veterans. The Jobs for Veterans Act, 
    Public Law 107-288 established the President�s National Hire Veterans
    Committee within the Department of Labor.
    The Committee has two missions, to furnish employers with information
    on the training and skills of veterans and disabled veterans, and the 
    advantages afforded employers by hiring veterans with such training
    and skills, to facilitate employment of veterans and disabled veterans
    through participation in America�s National Labor Exchange and other
    means.
    The Committee is comprised of leaders in industry and government, with
    such notable executives as Mr. Bob Lutz, Chairman of General Motors.
    We are grateful for the participation of all the members of the
    Committee and look forward to hearing about the work they have done.
    The Homeless Veterans Re-Integration program or HVRP is designed to
    take the men and women who are probably the most difficult population
    of veterans to serve off the streets and return them as productive
    contributors to society.
    It is a tall order and one that represents unique challenges to both
    the government and those who deliver the services to homeless veterans.
    It is a well-known fact that a very high percentage of homeless
    veterans have mental health and substance abuse issues and
    unfortunately, homeless veterans are not immune from these scourges.
    I suspect some are so debilitated that we will never return them to
    society outside of a very structured environment, but I am pleased
    there are two successful programs, and I hope that each of you will
    pay close attention to their testimony.
    I am also concerned about how we count for homeless veterans.
    For years, 250,000 has been the commonly accepted figure. 
    Today, I believe the VA estimates the number at about 185,000.  The
    number 300,000 has also been used.
    Clearly, there is a wide divergence in the estimate of the number of
    homeless veterans. Certainly, if anyone has an idea on how to get a
    handle on that issue, we would be pleased to hear it today.
    Also, before I recognize Ms. Herseth, I want to remind the panel that
    we have a mark-up tomorrow, which really shouldn�t take very much
    time.  Hopefully, we can get that done.
    I now recognize Ms. Herseth, who represents the whole State of South
    Dakota, for opening remarks.

OPENING REMARKS OF HON. HERSETH

    Ms. Herseth. Good afternoon,and thank you, Mr. Chairman.  I am pleased
    we are meeting today for the Subcommittee�s first legislative hearing
    I am particularly interested in working with you, Mr. Chairman, to
    reauthorize the Homeless Veterans Re-Integration Program, administered
    by the Department of Labor. As most of you know and as most of us
    know, HVRP is the only federal program aimed at providing employment
    services to our homeless veterans.  Moreover, it is a very successful
    and cost-effective program.
    Additionally, I am pleased we will consider and soon mark up the
    Servicemembers Health Insurance Protection Act of 2005, of which I�m
    an original co-sponsor. This legislation is very important for the
    increasing number of activated National Guard and Reserve components.
    The legislation would prevent unfair premium increases or delays in
    reinstatement of a returning servicemember�s employer sponsored health
    insurance coverage.
    I look forward to the testimony of our witnesses today, and I
    appreciate your efforts to assist us in creating effective and
    fiscally responsible legislation.  I hope that we will use the witness
    testimony to guide us in making helpful and reasonable improvements to
    the measures before us.
    Thank you, Mr. Chairman. I look forward to today�s testimony and yield
    back the balance of my time.
    Mr. Boozman. Thank you.  Ms. Brown-Waite?

OPENING REMARKS OF HON. BROWN-WAITE

    Ms. Brown-Waite. Thank you very much.  As you can tell, I�ve got
    laryngitis.  I will do the best I can.  As some would say, that is a
    husband�s prayers answered, but the bad news is he�s not here.  He�s
    back in Florida.  He can�t exactly benefit from it.
    I certainly want to thank all of the witnesses who are here to testify
    before the Subcommittee on Economic Opportunity.  I am also pleased
    that this first hearing will cover the important topics of health
    insurance, homelessness, employment and taxes.
    This Subcommittee has been tasked with helping to ensure that veterans
    have a smooth transition back into society after Service.
    Time spent in Service is a life calling for some, but only a pause
    in time for others. Resuming normal activities back home can often be
    difficult.
    Not only must a veteran reconnect with family and friends, but he or
    she faces many other challenges after being away from home.
    The legislation we will consider here will bring relief to
    servicemembers and to veterans.
    I would particularly like to call attention to the Servicemembers
    Health Insurance Protection or the SHIP Act. While this bill merely
    makes technical corrections, those small corrections will make a great
    difference to military families.
    It will guarantee the servicemembers returning to civilian life get a
    fixed rate for their re-insurance coverage. It also entitles Reservists
    to reinstated insurance coverage after being called to active duty.
    By helping alleviate the problems these men and women face in
    transitioning to and from Service, it will be easing the burden of 
    Service that lays heavily on separated families.
    I appreciate the attendance of each and every group here, and I commend
    the chairman for having this hearing today. I look forward to your
    testimony.
    Mr. Boozman. Thank you. We have a special guest here today, Nick Bacon.
    Will you stand up, Nick?  Nick is a dear friend. Nick was Director of
    the Arkansas Department of Veterans� Affairs.  Nick is a Medal of Honor
    winner.  He distinguished himself on the field of battle.  There are no
    if�s, and�s, or but�s about that.
    In fact, there was a great article about him in the Pride Magazine a
    year or so ago.
    Nick is also a hero in the sense that he performed those feats but he
    has also used his notoriety and performed countless hours of helping
    veterans, serving on various commissions, and is truly a hero in the
    sense of doing those things.
    We really appreciate you, Nick.  It�s good to have you here.
    Thank you very much.

[Applause.]

    Mr. Boozman. Our first panel is Mr. James Magill, Director of National
    Employment Policy, Veterans of Foreign Wars of the United States.
    Mr. Brian Lawrence, Assistant National Legislative Director, Disabled
    American Veterans. Mr. Carl Blake, Associate Legislative Director,
    Paralyzed Veterans of America, and Mr. Richard Jones, National
    Legislative Director for AMVETS.
    Let�s go ahead with you, Mr. Magill.  I know you have a train to catch.
    Go ahead and testify. If you need to leave, feel free to slip out.

STATEMENTS OF JAMES N. MAGILL, DIRECTOR, NA-
    TIONAL EMPLOYMENT POLICY, VETERANS OF FOR-
    EIGN WARS OF THE UNITED STATES; BRIAN E. 
    LAWRENCE, ASSISTANT NATIONAL LEGISLATIVE 
    DIRECTOR, DISABLED AMERICAN VETERANS; CARL
    BLAKE, ASSOCIATE LEGISLATIVE DIRECTOR, PARA-
    LYZED VETERANS OF AMERICA; AND RICHARD JONES,
    NATIONAL LEGISLATIVE DIRECTOR, AMVETS

STATEMENT OF JAMES N. MAGILL

    Mr. Magill. Thank you.  What I would like to say first is a pleasant
    surprise to see us up here first. I can speak for myself.  It�s very
    nice, instead of being last.
    I would like to just briefly comment on my remarks, because you do have
    a copy of my statement.
    The first thing I would like to address is H.R. 419,which extends the
    operation of the President�s National Hire Veterans Committee.  Public
    Law 107-288, the Jobs for Veterans Act, one of the provisions was the
    creation of the National Hire Veterans Committee.
    We did testify in support of that bill, and of course, of the provision.
    We think it is probably one of the best kept secrets of the quality
    that veterans bring to employment, especially in the private sector.
    H.R. 419 would reauthorize this Committee until December 31, 2008. 
    Again, VFW believes there exists a genuine need for the committee to
    continue its objectives.  We, therefore, support its extension.
    However, we do have concern with the way this bill would be funded.
    The funding as proposed would come through an one-half of one percent
    reduction in the funding for the DVOP and LVER programs.  We do oppose
    that.
    The next draft bill that we have before us was addressing HVRP.  We
    believe that this is probably one of the most beneficial and effective
    federally funded programs for veterans who are homeless.  It provides
    counseling, job training, and the all too crucial job placement.
    As I said before, HVRP is due to expire.  The VFW, recognizing the
    positive measurable results and critical need for HVRP, strongly
    supports its reauthorization.
    With respect to the other two draft bills, the Servicemembers Health
    Insurance Act of 2005 and the Servicemembers Taxation Act of 2005, we
    do support the enactment of these bills.
    That concludes my statement.  I�ll be happy to respond to any
    questions you may have.

    [The statement of James N. Magill was not provided.]

    Mr. Boozman. Thank you very much.  We have been joined by Mr. Evans, 
    who is the Ranking Member on the full Committee, and a member of this
    Subcommittee.  Mr. Evans, do you have a statement?
    Mr. Evans. At this time, I will pass, and I yield back my time.
    Mr. Boozman. Thank you.  Next, Mr. Brian Lawrence, Assistant National
    Legislative Director, Disabled American Veterans.

STATEMENT OF BRIAN E. LAWRENCE

    Mr. Lawrence. Chairman Boozman, Ranking Member Herseth and members of
    the Subcommittee, on behalf of Disabled American Veterans, thank you
    for the opportunity to testify on the bills under consideration today.
    The DAV was founded on the principle that our nation�s first duty to 
    veterans is rehabilitation of the full time disabled, along with
    quality health care and adequate compensation, this principle
    envisioned substantially gainful employment as a key step to helping
    disabled veterans obtain self sufficiency and rehabilitation.
    H.R. 419, the Hire Veterans Act of 2004, would reauthorize the
    President�s National Hire Veterans Committee. This committee was
    created to encourage employers throughout the nation to hire veterans
    by raising awareness of their high level skills and leadership
    abilities.
    Since its beginning, the Committee has listed a number of 
    accomplishments.  To remain on schedule, I will not reiterate those
    accomplishments, but I do wish to extend to the Committee the DAV�s
    praise for their efforts.
    This bill would provide a three year extension of the committee which 
    was set to expire in December 2005.  The DAV supports reauthorizing
    the Committee, but is concerned that this bill would fund it by taking
    a percentage from the DVOP and LVER programs.
    DVOP and LVER personnel provide important job services to disabled and
    other veterans by serving as intermediaries between them and employers.
    DAV is in support of the DVOP and LVER programs and it is based on
    resolutions adopted by our membership calling for protection and
    adequate funding for the programs.
    Support of this bill as currently written would be contrary to these
    resolutions because it would reduce such funding.
    DAV would support reauthorization of the Committee if its funding
    was not taken from another vital veterans� program.
    The Homeless Veterans� Re-Integration Program Reauthorization Act of
    2005 would reauthorize HVRP for fiscal years 2007 and 2008 at $50
    million per year.  This important employment services program was 
    established to help homeless veterans re-integrate into the labor
    force and obtain financial independence.
    The DAV is highly supportive of this program and other homeless
    veterans� initiatives.Services provided by HVRP can mean the difference
    between a veteran living on the street or living in transitional
    housing and acquiring skills that will enable them to provide for
    themselves.
    The DAV is pleased that this legislation would extend the program.
    In addition, on the legislative advocacy on behalf of homeless
    veterans, I�d like to note that the DAV also takes an active role in
    seeking to prevent and end homelessness among our nation�s veterans.
    Like HVRP, the DAV homeless veterans� initiative promotes the
    development and support of housing and services to help homeless
    veterans become productive self sufficient members of society.
    Since 1989, DAV allocations for these projects have exceeded $2
    million.
    The Servicemembers Health Insurance Protection Act of 2005 would limit
    premium increases on reinstated health insurance for servicemembers
    who are released from active Service, and it would preserve employer
    sponsored health plan coverage for certain Reserve members who acquired
    TRICARE eligibility.
    The Servicemembers Taxation Protection Act of 2005 would prevent double
    taxation of servicemembers from the laws of the tax jurisdiction and do
    not provide a credit against use, excise or similar taxes the
    servicemember previously paid in another jurisdiction.
    Mr. Chairman, in accordance with its constitution and by-laws, the
    DAV�s legislative focus is on the benefits and services for Service
    connected disabled veterans, their dependents and survivors, because
    the issues addressed within the last two bill mentioned are not
    specific to its legislative focus the DAV has in its resolutions that
    are related directly to the issues addressed.
    However, since they would both benefit members of the Armed Forces,
    the DAV has no objection to favorable consideration of either bill.
    On behalf of the 1.2 million members of our organization, I again
    thank you for this opportunity to present our views.

    [The statement of Brian E. Lawrence appears on p. 41]
 
    Mr. Boozman. Mr. Blake, of the Paralyzed Veterans.

STATEMENT OF CARL BLAKE

    Mr. Blake. Chairman Boozman, Ranking Member Herseth, and members of
    the Subcommittee, PVA would like to thank you for the opportunity to
    testify today on the proposed legislation. As mentioned, the President�s
    National Hire Veterans Committee was created by Public Law 107-288, the
    Jobs for Veterans Act.
    In testimony provided before the House Veterans� Affairs Subcommittee
    on Benefits on April, 18, 2002, PVA supported the creation of the
    President�s Committee.
    The original purpose of the Committee was to raise employer awareness 
    of the skills of veterans and the benefit of hiring benefits, as well 
    as to bridge the gap in communication that exists between employers and
    veterans seeking employment.
    However, we believe that the President�s Committee has not lived up
    to expectations. After reviewing the Committee�s report for 2004,we
    see no tangible proof that this Committee has helped open doors to 
    veterans seeking employment in the private sector.
    The report implies that the Committee played a major role in the
    creation of Home Depot�s Operation Career Fund, an initiative that
    seeks to attract military job seekers, but the report lacked detailed
    information regarding the real extent of the Committee�s involvement.
    Furthermore, we have not seen any other reports provided by the
    President�s Committee.  In accordance with the provisions of 107-288,
    the Committee was to have provided a report also for 2003 and is also
    required to do so for 2004. Yet, we have only seen the report for 2004.
    PVA is particularly concerned about the provision of the legislation
    that would allow the President�s Committee to be funded out of money
    provided by the Department of Labor for administration of DVOP and LVER
    programs.
    PVA believes that the current efforts to change the way employment
    services at DOL are funded jeopardizes DVOP specialists and LVERs.
    It seems unless there is a paradigm shift, the number of DVOP
    specialists and LVER staff will be reduced.
    Although we believe that the Committee�s purpose is genuinely a good
    one and it can serve a good purpose, we have to oppose H.R. 419 because
    of the provision allowing the funding through the DVOP and LVER programs.
    The Homeless Veterans Re-Integration Program is a viable program
    focusing on employment of homeless veterans. This program has been
    a wonderful success since its inception almost 20 years ago.
    PVA supports the reauthorization of HVRP through 2008, and in fact,
    we would like to recommend that the legislation be changed to
    authorize it for five years, through fiscal year 2011.  This is in
    accordance with the recommendations of the National Coalition of
    Homeless Veterans, which PVA is a member of.
    We also support the reauthorization of the program at the $50 million
    funding level.
    The HVRP is perhaps the most cost effective and cost efficient program
    within the Federal Government. In spite of the success of HVRP, it 
    remains severely under funded.
    Even more tragically, DOL does not really request full appropriation
    in its budget submission.  For fiscal year 2006, the administration
    only requested $22 million to support this program despite a $50
    million authorization.
    Enactment of this legislation would ensure that homeless veterans who
    need a high level of support get the support they need.
    PVA also supports the last two bills which are under consideration,
    the Health Insurance Protection Act and the Taxation Protection Act.
    We have no objection as they are considered.  I look forward to
    working with this Committee to ensure that proper protections and
    services are put into place to allow Service men and women who are 
    returning from Iraq and Afghanistan and who are coming off active duty
    transition smoothly back to civilian life and into the employment
    sector.
    Mr. Chairman, we would like to thank you again for the opportunity to
    testify.

    [The statement of Carl Blake appears on p. 46]

    Mr. Boozman. Mr. Jones, of AMVETS.

STATEMENT OF RICHARD JONES

    Mr. Jones. Chairman Boozman, Ranking Member Herseth, members of the 
    Subcommittee, Ms. Brown-Waite, H.R. 419, the Hire Veterans Act of 2004,
    would extend the operation of the President�s National Hire Veterans
    Committee.
    While we support efforts to enhance the profile of America�s commitment
    to its veterans, we are really aware of no official account of any past
    achievement of this Committee. Reports of 2003 and 2004 provide no
    insight to any substantial gain by this Committee.
    We are concerned further that the legislation would fund the
    President�s National Hire Veterans Committee through the Department of
    Labor�s administration of Disabled Veterans Outreach Program and Local
    Veterans Employment Representative Programs.
    If the House Committee believes the National Committee should be
    extended, AMVETS would hope that consideration be given to finding a
    separate funding source other than the DVOP and LVER programs.  Taking
    resources from an effective DVOP program to fund one that is not would
    be a mistake that we trust the Veterans� Affairs Committee would avoid.
    On the second matter, AMVETS strongly supports draft legislation to
    reauthorize the Homeless Veterans Re-Integration Program.  Grants made
    through HVRP provide homeless veterans with occupational training, job
    search and placement assistance.
    HVRP has been a very successful program, broadly supported by local
    community groups and veterans� service organizations, and we support
    the reauthorization.
    With regard to the Servicemembers Health Insurance Protection Act of
    2005, while of course we would like to protect the possibility of
    returning troops finding steep increases in their private health care
    insurance due to a non-military related circumstance, we do not want
    private insurance to carry the national burden of health care for
    military personnel.
    As a member of the Military Coalition Guard and Reserve Committee, as
    a chairman of a committee in the National Military Veterans Alliance,
    we are not aware of this issue being on the radar of any organization
    representing Reserve components.
    We are aware of the importance of ensuring reinstatement when folks
    return from deployment, but we are not aware of private sector gouging
    of returning veterans.  If we could be educated on that, we would be,
    and we would certainly support that.
    On the final draft bill before the panel, the Servicemembers Taxation
    Protection Act, AMVETS fully supports the legislation.
    Servicemembers relocate items subject to personal property tax,
    excise tax, use tax, sales tax, and should not be penalized, not be
    taxed twice.  We certainly support that fully.
    Mr. Chairman, that concludes my remarks.

[The statement of Richard Jones appears on p. 55]

    Mr. Boozman. Thank you very much.  Thank all of you.
    I mentioned earlier that we were having a problem really trying to
    figure out how many homeless veterans there are.  Do you all have
    any figures from your organizations or is that something you feel
    like you can help us with?
    Mr. Magill. We do not have a number. We rely on what VA is coming out
    with.  I hope you can imagine that with all our folks out there, we
    can get an idea individually sometimes, but as far as a whole number,
    we don�t know.
    All we do know is it�s a lot, and it�s way too many as far as even one
    would be too many.
    Mr. Blake. Mr. Chairman, we don�t have any kind of survey that could
    accurately reflect those numbers.  I would submit that Ms. Linda Boone,
    who I believe will be testifying next, probably could respond to that
    question a little better, and being that we are a member of that
    organization, I would like to defer to her perhaps.
    Mr. Jones. Certainly, it is difficult to get a hold of that number.
    These folks are homeless and hard to account for, either them or their
    families.  We rely on the number that comes out of the VA, a quarter
    million average. It could be higher.  It could be lower.  I�ve seen
    figures as high as half a million.  We know there are many.
    We know the HVRP program is a program that attracts a great number of
    competitors seeking those grants to assist homeless in their local
    areas.  These folks report to us that there are many homeless.
    Mr. Boozman. Ms. Herseth?
    Ms. Herseth. Thank you, Mr. Chairman.  Thank you for your testimony
    . Just a couple of questions to follow up.
    Mr. Magill and Mr. Lawrence, given the statements you have made in
    terms of your organizations� support of extending the authority of the
    Committee, and your concerns about the funding of extending the
    Committee.
    If we weren�t able to address your concerns with regard to diverting
    money away from the chronically under funded LVER and DVOP programs to
    fund the extension of the Committee, would you then take positions
    similar to Mr. Blake and Mr. Jones and their organizations -- it sounds
    like you are more supportive of the work the Committee has done perhaps,
    or maybe I am misreading the testimony.
    It seemed like you were more supportive of the extension as long as we
    an address the funding concerns versus where Mr. Blake and Mr. Jones
    may be at this point.  Is that true?
    Mr. Magill. Our concern, of course, is that employers recognize the
    attributes that are brought to the workforce.  I have to agree somewhat
    with Mr. Jones and Mr. Blake that after reading the reports, I expected
    a little more.
    What I am looking at is the potential that we hope this Committee can
    live up to.  They have a wealth of knowledge that sits on the
    Committee.  At the same time, I have fears that when you start taking
    money away from the DVOP and LVER program, such as taking one-half of
    one percent, which is a small amount, but it could open up the door for
    continued reduction in this program.
    We do support the Committee.  Once again, we hope that what is said here
    today will get the message to the Committee that we are watching them
    and we do expect a lot more results for the money they are being supplied.
    I hope that answers you.
    Ms. Herseth. Yes, it does.  If I mischaracterized the positions of
    Mr. Blake and Mr. Jones, I hope you will correct me.
    Mr. Lawrence, did you have anything to add?
    Mr. Lawrence. I would agree with Mr. Magill that we don�t want to open
    the door to taking money from the DVOP and LVER programs.
    I would say that the accomplishments of the Committee and the goal of
    the Committee are hard to measure. We do recognize that.  It�s a noble
    goal.  We just feel that it is kind of overlapping with the mission of
    the DVOPs and LVERs as well.
    Already the training program, NVTI, that provides education or training
    to DVOPs and LVERs has been flat lined for a couple of years. We just
    wonder if it might not be more efficient use of the money if NVTI was
    fully funded.  We know these programs are efficient.  We would like
    to make sure that the money is channeled accordingly.
    Ms. Herseth. Certainly. I think in terms of what we have seen in the
    Administration�s proposed budget, many programs that actually had been
    deemed to not be efficient, to be duplicative, are the ones that have
    been severely cut.
    Here we have again some difficult decisions about how we allocate
    limited resources.  I appreciate the insights that you have offered.
    Mr. Blake, if you could elaborate just a little bit. You had mentioned
    in terms of reauthorizing HVRP for two years, that you would prefer a
    longer extension to five, perhaps to provide a level of stability, but
    could you elaborate on your reasoning in your advocacy for a longer
    extension period?
    Mr. Blake. Yes, ma�am.  First off, we support the idea that it would be
    extended period.  I want to make that clear.  We take the position of
    extending it through 2011 because if I�m not mistaken, the National
    Coalition for Homeless Veterans has done the same.
    HVRP has been around for quite a long time, 20 years is a long time
    for a program that started out very small and has grown a little bit,
    but its services have outgrown the size of the program and the services
    it provides to homeless veterans.
    Over the last few years, we have seen homeless veterans become more of
    an identified problem and more efforts to try to go in the direction of
    helping them.  I see no point in short term authorizing HVRP, which may
    be the best homeless veteran program on the market, so to speak.
    Ms. Herseth. My time is up.  Just one last comment, particularly in
    light of what sounds like anecdotal evidence, either from members of
    your organizations or new members about the level of homelessness that
    we have of veterans of past wars with those returning from Iraq and
    Afghanistan.
    I appreciate your thoughts there, too.  Thank you.
    Mr. Boozman. Mr. Evans?
    Mr. Evans. Thank you, Mr. Chairman.  I also appreciate your leadership
    on this issue and thank all the witnesses for coming to be here with us
    today.    I just wanted to clarify, and I think Linda may when she
    comes up give us some information in terms of homeless programs.
    One of the things is, and I haven�t had a chance to talk to my staff
    about it, the authorization of an incarcerated veterans program within
    HVRP.  Incarcerated veterans are not a group I think we have heard much
    from. I believe we can do much more in that area, but we don�t want to 
    take money from Peter to pay Paul. I hope we can clarify that.
    Secondly, I haven�t talked to my staff about when the hearing will be
    to mark up the first two bills.  Is that tomorrow at 9:00?  Are we
    going to have time to make sure everybody knows?
    I didn�t want anybody to leave here without knowing that.With that, I
    yield back my time, Mr. Chairman.
    Mr. Boozman. Thank you.  I want to thank the panel very much for being
    here, appreciate your testimony.
    Yes, sir?
    Mr. Magill. If you don�t mind, sir, I just had one comment.
    Mr. Boozman. Yes, sir.
    Mr. Magill. If this bill would have provided for making HVRP a permanent
    program, we would not oppose that.
    Mr. Boozman. Again, thank you very much for your testimony and for your
    time.  It�s greatly appreciated.    Our second panel members come from
    groups serving homeless veterans.  Ms. Linda Boone is Executive Director
    of the National Coalition for Homeless Veterans.  Mr. Jack Downing is
    President and Chief Executive Officer of United Veterans of America.
    Dr. Jack Pierce is Director of Student Services, Maryland Center for
    Veterans Education and Training. We understand that Ms. Boone is not
    going to be with us any longer, and is going to be moving on.  We want
    to send our best regards from the Subcommittee.  I also understand that
    Colonel Williams, the Maryland Center�s director, was unable to be here,
    and again, we send our best regards.
    Mr. Downing, you are recognized.  Thank you.

STATEMENTS OF JOHN F. DOWNING, PRESIDENT AND CHIEF EXECUTIVE OFFICER,
UNITED VETERANS OF AMERICA; LINDA BOONE, EXECUTIVE DIRECTOR, NATIONAL
COALITION FOR HOMELESS VETERANS; AND JACK R.M. PIERCE, DIRECTOR OF STUDENT
SERVICES, MARYLAND CENTER FOR VETERANS EDUCATION AND TRAINING, INC.

STATEMENT OF JOHN F. DOWNING

    Mr. Downing. Chairman Boozman and members of the Committee, I�m honored
    to be here today on behalf of the 900 homeless veterans enrolled
    annually in the United Veterans of America program.
    Each day, 190 of our homeless veterans are assisted by the UVA program,
    providing a continuum of care beginning with the treatment of trauma
    and mental health issues that result in substance abuse, shelter, food
    and other necessities, job training and counseling throughout their
    stay. We work in partnership with the Veterans� Administration and
    the per diem program for homeless veterans.
    The United Veterans of America has 120 veterans in transitional living
    on site at the VA campus in Northampton, Massachusetts.  We also have
    60 veterans in transitional housing at the Berkshire Veterans Residence
    in Pittsfield, Massachusetts which opened in September 2004.  We have
    ten new studio apartments funded through the U.S. Department of Housing
    and Urban Development, which provide permanent housing for homeless
    veterans with disabilities at the Pittsfield site.
    The UVA serves veterans who are primarily from Massachusetts, Rhode
    Island, Connecticut, New York, Vermont and New Hampshire.
    The average age of a homeless veteran in our care is 53 years.
    Approximately 85 percent of our clients have mental health and substance
    abuse issues. Eight percent are elderly, over the age of 70.  Five
    percent are female.  More than 25 percent are diagnosed with
    post-traumatic stress syndrome and 28 percent of our residents have come
    to us on parole or probation.  We have just begun to serve some Iraq war
    veterans.
    The VA Grant and Per Diem Program provides the core funding for our
    veterans� housing programs.  Most recently, the UVA began a collaboration
    with the Northampton VA to develop intensive support services for 40
    chronically mentally ill residents and 15 females annually that
    hopefully will result in permanent housing for all of them.
    The UVA is a participant in two Western Massachusetts HUDC funded
    continuums of care which provide additional support and funds for 
    veterans at both the Northampton and Pittsfield facilities.
    The UVA received an HVRP intermediary grant of $220,000 in 2004 to
    assist in employment of homeless veterans in our region.  We commend
    the Department of Labor in its attempt to assist homeless and
    incarcerated veterans� re-entry into the workforce.
    These programs acknowledge the difference between rural and
    urban communities and are beginning to foster collaborations between
    small communities and faith based organizations and mainstream service
    providers in the areas that we work in
    Integrity is at the core of the UVA program, the integrity of the
    veterans, the integrity of our staff, and the integrity of our
    commitment to tirelessly work to improve the lives of homeless veterans.
    The UVA has implemented an integrity contract which is integrated into
    the treatment model that promotes social responsibility for the
    individuals in our care.
    Psychosocial services are augmented by employment, housing, educational
    and community service programs.  Veterans develop self awareness and
    personal growth through volunteer and supported work placements with
    community agencies.
    Veterans receive services from these agencies, yet more importantly,
    are given the opportunity to serve others in need.  This enhances
    their self respect, their personal dignity and pride. The program
    constantly evaluates veterans� needs and is poised to assist veterans
    returning from Iraq with the opportunity to self determine their
    pathway to success.
    We perceive a gap between the skills of our veterans and the resistance
    of some employers to hire formerly homeless veterans.  This is
    particularly true for those veterans who may have been incarcerated.
    This reality has led to significant shifts in our strategies on behalf
    of veterans in need of employment.
    The UVA practices employer oriented job development. We work to
    understand the needs of area employers, enabling the UVA to present
    qualified candidates ready to work.
    We have partnered with the Sheriff�s Office in Berkshire County,
    Massachusetts and the Pittsfield Community Television in Massachusetts
    to initiate a program produced, directed and filmed by formerly
    homeless veterans, such a tremendous project.
    When we walked into the first filming, we had Lieutenant Governor
    Carrie Healey from Massachusetts as the first guest. When she walked
    in and saw two chronically mentally ill formerly homeless veterans
    running t.v. cameras, she turned to me and she said, hey, you�re
    really doing what we want you to do, and I said to her, yes, that�s
    what it�s about, Ms. Healey, it�s really about getting veterans
    engaged in the process.  We call that projection Operation Rising
    Star.  This program presents the community employment experts
    candidates from our population that are ready to re-enter the
    workforce.
    This 30 minute weekly program premieres in June 2005 and we have all
    kinds of experts from senior government and business offices in the
    northeast working with us on this project.
    We are using Department of Labor funds to assist in this exciting
    utilization of media technology that allow veterans to learn new
    skills and experience a sense of ownership of their work.
    The United Veterans understands that our veterans do not necessarily
    seek full time employment. Therefore, creativity and flexibility are
    key factors in business opportunities for veterans.
    Two models of veteran owned businesses have been adopted.  The vending
    operations in our existing three facilities has been converted to a
    veteran owned and operated business. Homeless veterans have purchased
    vending machines and inventory and serve our facilities.  These
    businesses were funded with private sector funds.
    The United Veterans of America is currently acquiring a Juice and
    Java franchise for two formerly homeless veterans.  This business will
    employ the two UVA owner veterans and four to seven other veterans
    part time as their employees.
    Additionally, we have been approached by area manufacturers to create
    an inventory measurement service employing homeless veterans to
    accommodate the seasonal and part time nature of particularly the
    plastics industry�s local demand for this type of service.
    As we look at the potential of the veterans we serve, we see no end to
    the possible solutions for improving homeless veterans� lives in a way
    that encourages their particular abilities and career goals.
    We develop individualized programs for each veteran at the UVA, which
    identifies the potential of each veteran and helps to stabilize their
    lives.
    These include a personal resume development; issues related to past
    under employment; definition of their personal support network
    including counselors, advisors and family members; realistic career
    expectations; communication and presentation skills, and follow up
    support.
    The UVA program ensures that each homeless veteran has access to
    professional help while the veteran remains in control of his or her
    own life decisions.
    The United Veterans of America has accepted the challenge of President
    Bush to end chronic homelessness during the ten years of 2002 to 2012.
    The UVA has implemented the strategy of changing the end of the story
    as our response to this challenge.
    A safe, sober environment in a transitional housing facility is no
    longer acceptable as a long term solution for homeless veterans. 
    Rather, our goal has become safe, sober, permanent living facilities
    that allow veterans ownership of their housing.
    Employment and a stable income are essential to this goal.  We have
    come to the conclusion that employment which is limited by
    disincentives and that eliminates entitlements for veterans must be
    restructured and re-thought.  Programs that stress job readiness
    skills that are sensitive to the employer community are central to
    our strategy and present a realistic assessment of veterans� abilities
    to enter the workforce. Business ownership by homeless veterans offers
    creative and flexible work alternatives for our veterans
    .
    As program development continues, we must create systems that provide
    easy access for veterans in all service areas.
    We are committed to work with the Department of Veterans� Affairs,
    Housing and Urban Development, and Labor, and all interested members of
    the Congress, and organizations to help change the end of the story for
    all homeless veterans.
    Together, we can help our homeless veterans achieve integrity, dignity
    and hope.  Thank you.

[The statement of John F. Downing appears on p. 62]

    Mr. Boozman. Ms. Boone?

STATEMENT OF LINDA BOONE

    Ms. Boone. Good afternoon. Contrary to the perceptions that our
    nation�s veterans are well-supported, in fact, many go without
    services they are eligible to receive.
    One-and-a-half million veterans have incomes that fall below the
    Federal poverty level.  Neither the VA, state, or county departments
    of veterans� affairs nor community-based service providers have
    adequate resources to respond to these veterans� health, housing, and
    service needs.
    For example, the VA reports that its homeless treatment and
    community-based assistance network serves 100,000 veterans annually,
    only 20 percent of those in need. 400,000 homeless veterans remain
    without services.
    Likewise, other Federal, state and local public agencies, notably
    housing and health services, are not adequately responding to housing,
    health care and supportive services of veterans.
    The National Coalition for Homeless Veterans is privileged to testify
    today on the reauthorization of the Homeless Veterans Re-Integration
    Program, privileged in that NCHV, commemorating its 15 year anniversary  
    this year, owes its founding to HVRP.
    It was at a meeting of HVRP grantees that our organization founders
    met each other and came to appreciate that they were not working in 
    isolation, that there were others sharing their concern with the
    tragedy of homelessness among veterans and were taking action.
    At the same time we are saddened today, saddened that there is still a
    need 15 years later to hold another congressional hearing on homeless
    veterans.  Saddened further that there is still a need for the Homeless
    Veterans Re-Integration Program.
    Frankly, our founders and our members thought we would be out of
    business by now.
    An immediate first step, shocking in the fact that it has not yet come
    to pass, would be the appropriate funding for HVRP in fiscal year
    2006, a full authorization level of $50 million.
    DOL estimates that 14,750 homeless veterans will be served through
    HVRP at the fiscal year 2005 appropriations level of $21 million.
    This figure represents just three percent of the overall homeless
    population that will be serviced.
    We appreciate this subcommittee�s obvious interest in HVRP, to continue
    to set a $50 million authorization level. However, we recommend a five
    year period.  A longer authorization period is particularly important
    given the current proposal by the Administration to restructure our
    nation�s veterans� workforce program within its WIA proposal.
    Expanding the eligible population for HVRP to also include veterans at
    imminent risk of homelessness enables grantees to use these funds for
    homeless prevention is something we also request.
    NCHV generally supports efforts that generate employment opportunities
    for veterans.  Veterans with jobs are less likely to lose their housing
    than veterans that are without sources of income.  As such, we have no
    reason to be anything other than supportive of Congress� decision to
    establish the President�s National Hire Veterans Committee.
    We are now interested in knowing how the Committee is tracking specific
    and measurable outcomes of work.  What are those outcomes?  How many
    veterans have actually been hired due to the Hire Vets First campaign?
    What action is the Committee taking to promote hiring of veterans with
    serious barriers to employment?
    We are also concerned that funding for the Committee is drawn from VETS
    state grant program, as you have already heard, diverting precious
    resources that are known to put veterans to work compared to a public
    awareness campaign that has no evidence base.
    Given these concerns, we withhold support for the Hire Veterans Act.
    Current law requires the Department of Defense and Homeland Security
    to provide individual pre-separation counseling to each member of the
    Armed Forces whose discharge or release from active duty is anticipated.
    Current law authorizes the Department of Labor to furnish counseling
    and assistance in obtaining employment and training opportunities to
    members of the Armed Forces who are separated from active duty, known
    as the Transition Assistance Program.  Participation in this program
    is not mandatory.
    Former servicemembers with whom our Coalition is in daily contact
    report that pre-separation counseling and the Transition Assistance
    Program are lacking in a number of areas.
    Among their concerns are the depth and content of the pre-separation
    counseling that is a variable cost at delivery sites.  This counseling
    may be limited to brief group level presentations rather than
    individualized transition plans.
    Servicemember participation in TAP is at the will of the unit commander
    and often allowed only during off duty time.  We need a program that
    includes content on homelessness awareness or housing and counseling
    assistance and referral.
    Weaknesses in both of the content and delivery of servicemember
    separation programs result in some servicemembers failing to receive
    information necessary to ensure their stable health care, steady
    employment, and secure housing upon their return to civilian life.
    This places servicemembers at an increased risk of homelessness.
    In response to these concerns, NCHV has developed a legislative
    proposal, the Servicemembers Enhanced Transition Services Act, to
    improve transition assistance provided for members of the Armed
    Services being discharged, released from active duty or retired.
    We urge this Committee members to introduce or co-sponsor this Act and
    to ensure its enactment this session. In addition to HVRP, many other
    programs that Congress has authorized to address homelessness among
    veterans are scheduled to sunset in 2006 and merit extension.NCHV urges
    Congress to reauthorize, strengthen and expand the specialized homeless
    programs and the authorities of the Department of Veterans� Affairs.
    Thank you very much.
 
    [The statement of Linda Boone appears on p. 69]

    Mr. Boozman. Thank you.
    Dr. Pierce?

STATEMENT OF JACK R.M. PIERCE

    Mr. Pierce. You had mentioned, Mr. Chairman, about Colonel Williams was
    supposed to be here today.  He asked me to come.  Colonel Williams takes
    dialysis on Wednesdays and he couldn�t be here, so he asked me to pinch
    hit for him.
    Mr. Boozman. We appreciate that.Like I said, tell him we are thinking
    of him.    Mr. Pierce. It�s my pleasure.  MCVET was established
    approximately 12 years ago with a mission to provide homeless veterans
    and other veterans in need with comprehensive services that will enable
    them to rejoin their communities as productive citizens.
    MCVET operates a militarily constructed facility where veterans are
    reintroduced to the military type of discipline that they were 
    accustomed to through their service.
    The re-awakening of the routine military discipline enhances MCVET�s
    ability to stabilize and reorder the lives of these veterans.  Each
    student attends substance abuse classes and alcoholic and narcotic
    anonymous meetings, and work in conjunction with a case manager in the
    development of an individual service strategy plan, which is a long
    range plan used as a tool in remaining drug and alcohol free.
    Services include a day drop in, emergency, transitional and permanent
    housing, substance abuse counseling, assistance with physical and mental
    health issues including post-traumatic stress disorder or PTSD, job
    training and placement, and education.
    MCVET owes its very existence to the Federal grants and to community
    based 501(c)3 organizations.  We have uniquely married the housing
    services available from HUD, the medical and social services support
    available from Veterans� Affairs, and the job training education
    services available from the Department of Labor, in order to move
    homeless veterans into the societal mainstream as self supporting and
    contributing members to their families and their communities.
    From July 2004 to June 30, 2005, we received the amount of money that
    we have here in the testimony, and then we received a grant for the
    two fiscal years from July 1, 2003 to June 30, 2004.
    MCVET used these grants from DOL, the VA, and HUD to provide a
    complete continuum of care for veterans consisting of a 50 person
    capacity day drop in center, a 50 person capacity emergency shelter
    program, a 120 person capacity transitional housing program, and an 80
    room permanent housing facility called SRO or single room occupancy, a
    complete dining facility, learning center, fitness gym, and classrooms.
    Thus, a veteran can go from being homeless to permanent housing within
    the same program while maintaining continuity of counseling and support
    .
    We are focused today on grants provided by the HVRP program and how
    they benefit homeless veterans. The HVRP funds from the Department of
    Labor has enabled MCVET during fiscal year 2003 to enroll 198 and
    during 2004, 214 veterans in education and training programs.
    MCVET placed 191 veterans in fiscal year 2003, and 188 veterans in
    2004 in full time unsubsidized employment with an average salary of
    $12.08 per hour in fiscal year 2003 and $12.39 per hour in fiscal
    year 2004. During the same fiscal years, the permanent housing program
    serviced 116 and 88 veterans respectively.  Case management and
    counseling are ongoing components of the veterans� stay in permanent
    housing.  Also, it is at this housing level that female veterans can
    access MCVET�s program.
    During fiscal year 2003, 22 percent of all the veterans placed in
    employment in the State of Maryland and 86 percent of all veterans
    placed in employment in Baltimore City came from MCVET�s job service
    office.
    The HVRP program coordinator, which is a position funded by the HVRP
    grant, enables MCVET to place veterans in the jobs I have listed here,
    just to name a few, drivers with CDL A and B class licenses, HVAC
    technicians, information technology, apprenticeships in painting.
    These are paid apprenticeships in painting, electricians, carpenters,
    elevator maintenance, sheet metal machinists.  Full time positions
    have also been obtained in heavy equipment operator, substance abuse
    counselors, youth counselors, work with the Department of Public
    Works, Public Safety, Homeland Security, medical billing, medical
    coding, medical assistance, biomedical nursing assistant, phlebotomist,
    medical administration service, culinary arts, barbers, cosmetology,
    dental assistants and loan officers.
    Additionally, MCVET�s job office has placed veterans in high profile
    jobs, such as drafting, hotel/hospital management, and maintenance
    technicians for a municipal transportation system, master fitness
    trainer, and web master.
    MCVET strives to place veterans in situations where they can succeed
    rather than fail.
    For fiscal year 2003, the retention rate after 90 days for veterans
    placed in employment was 86 percent still working.  For fiscal year
    2004, for those after 90 days still working, it was 96 percent.  After
    180 days, the retention rate for fiscal year 2003 was 73 percent and
    for fiscal year 2004, it was 71 percent.  This is six months out.
    We have placed 91 percent of the veterans seeking employment for fiscal
    year 2003 and 89 percent of those seeking employment for fiscal year
    2004. We are committed to developing careers for our veterans rather
    than dead end jobs that tend to perpetuate the cycle of poverty.
    Veterans who are educated, gainfully employed and independent are assets
    to their communities. They are reunifying with families, purchasing
    their own homes, starting their own businesses, and participating in
    the economy.
    Because of our work with veterans, HUD declared our program a national
    model on 7 May 1997.  This occurred after we had been serving veterans
    a little less than three years.
    In closing, I would like to thank you for this opportunity to appear
    before you and to share MCVET�s story. Homeless veterans are likely to
    face greater challenges in the years ahead, as scarce resources are
    strained and with a service delivery system that is already
    overburdened. I urge you, in your deliberations, to consider the plight
    of those young men and women who have been sent to defend the ideals of
    this country.  Many of them are returning home broken of body, mind, and
    soul, and this country needs to provide them with resources to enable
    them to share in the American dream.
    I implore you to pass the legislation for reauthorization of the HVRP
    Act of 2005.  Thank you.

    [The statement of Jack R.M. Pierce appears on p. 82]

    Mr. Boozman. Thank you.  Again, we appreciate the testimony.
    Mr. Downing and Dr. Pierce, you all seem to have a substantially higher
    success rate not only initially but after 180 days or however you want
    to measure it than some of the other programs, maybe some of the other
    Department of Labor programs.
    What do you attribute that to?  You work with lots of individuals and
    have seen lots of different programs come and go.
    Mr. Downing. From my end, Mr. Chairman, I think there are two things.
    I think you have to work with the complete fabric.  You can�t be just
    doing employment and not dealing with substance abuse. You need to get
    the substance abuse, the site social services, you need to get the
    whole piece.
    The second thing is you need to have a vision that you communicate to
    the veterans.  They have to know that you have their heart in your
    heart.  You have to know that if you really believe in this process 
    that there has to be an end of the story that works.
    Saying to people we are going to get you sober and safe and help you
    get employment and then ship you off to an SOR where loneliness and
    isolation start and you start cycles again, that�s what we saw we had
    to stop, number one.
    The second thing is we needed to build partnerships that worked.  We
    had to stop being at war with funding sources. We needed to develop
    relations of respect and see that we figure out strategies that allows
    us to work together.
    We have been very successful building relationships with the VA. I
    testified in this room a couple of years ago, and I think Pete Doughtery
    said to me, you know what, Downing, if I ever see you again, you better
    have a vest on. We were joking about firing back at one another,
    because our program had been cut.
    The reality is we needed to build a relationship that worked. We had
    to be responsible for that.  We have built partnerships both at the
    national level with the funding sources and in the community,where
    members of the Chamber of Commerce, if you want to work with employers,
    you have to go to their meetings. You have to know they know you.
    We are a member of the Berkshire Plastic Network funded by General
    Electric Plastics, 36 plastics companies pay $300 to $500 a year to be
    a member.  We pay $300 a year to be a member so we can learn about
    their industry and their jobs and they would know us and understand us.
    I think the third component is you need to be able to start to show
    people that failure is never final. You have to remember that the
    people that we work with,every system built to help men and women has
    failed them. Community services has failed, military services fail,
    psych-social services have failed, family has failed, everything has
    failed. When they come to us, we need to be able to say this failure
    is not final. We are going to begin to build your dignity. We are going
    to begin to build your personhood. We are going to begin to give you a
    sense of purpose.  We need to figure out strategies to motivate them.
    In our program, we decided that failure was our responsibility not our
    clients.  When you leave the United Veterans of America, if you should
    leave us, we see that as our failure, that we didn�t develop a strategy
    , a sensitivity, an understanding or skill that could touch you in a
    way that you would want to stay and continue to work with us.
    We don�t even want your failure to be yours any more.  We want to take
    that burden away and give you that possibility.
    I think those pieces work together.  I think you have to have a passion
    and a commitment to stay in there. Mr. Pierce. We take a veteran into
    our program and try to look at the whole person, treat that person
    holistically, not just for the substance abuse, but we try to recreate
    and re-establish a healthy body and a healthy mind.
    We start that process with a shelter program where we require them to
    be with us at least 30 days when they come in.  It�s not an emergency
    shelter.  We call it the emergency shelter program because by contract,
    we are required or we are mandated to provide 13 weeks of housing in
    our emergency shelter program.
    During this 13 weeks, we will begin to address barriers to recovery,
    barriers to employment, barriers to education. At that level -- we call
    it the first platoon. We have case managers.  All our case managers
    are Master level case managers, social workers, with licenses, who are
    tasked to work with a person coming in off the street.
    That is an intensive kind of relationship that is developed at that
    level.  All of these things they have them addressing, court issues,
    child support issues, education, getting over the effects of having
    been addicted to alcohol and narcotics and chronic mental illness.
    Some of them are dually diagnosed.
    We begin to work on those issues at that level.We begin to know who we
    are dealing with. During that first 13 weeks, and after 60 days,they
    are allowed to transition to our transitional housing program, we
    develop a service strategy plan. I call it a blueprint for success.
    The case management occurs at all levels of our program, so we know
    who we are dealing, when we send someone out to get a job. After the
    91st day in our program, persons are eligible to apply for education,
    training, and employment. I don�t say they will, but they are eligible
    to do so because at that point, the case manager sits down with the
    veteran and decides are you ready to get involved in training? Are you
    ready to get involved in going back to college? Are you ready to get
    involved in going out to work?
    They make that decision conjointly.If that person is ready, then they
    are referred to our DVOP. We have a DVOP who is out stationed to MCVET
    five days a week, eight hours a day, with an office in our facility.
    He works for us, but is paid by the state with Federal funds. Our DVOP
    is here if you have questions for him.
    That person begins to work with our veterans in finding a job, finding
    a training slot, finding apprenticeships, right in our office.
    You heard the statistics that office placed for Baltimore City.  Of
    the veterans who were placed in positions, our office placed 86 percent
    of them.  For the State of Maryland, 22 percent.  He is stationed
    right there with us. We know who we are dealing with.  Our persons go
    out to jobs.  Partnerships have been discussed.  Our employers know
    that when we send someone to them, that person is ready to work, will
    be there, will show up, has developed the kind of work ethic that they
    need to have in order to come to work on time, be at work and put
    forth an effort. They trust us to send them the best. In fact, we
    have employers calling us for persons to employ.That is our success
    rates. Not only that, at every point in our program, the person is
    case managed.  We never lose track of that person.  We know after six
    months. In fact, we follow up ad nauseam.  We never really lose
    contact with our people. Six months and three months is what the HVRP
    and HUD requires, but we go forever.  Mr. Boozman. Very good.
    Ms. Herseth?  Ms. Herseth. Thank you, Mr. Chairman. Thank you very
    much for your testimony. Mr. Downing and Dr. Pierce, I appreciate
    hearing more about the programs that you are involved with, the success
    rates you have had,the impressive records the Chairman has acknowledged
    and expressed, whether it is Operation Rising Star, as you mentioned,
    which is fascinating,as well as what you do with the MCVET center in
    Maryland. Before I ask a few questions of you, Ms. Boone, I would like
    for the two of you to address the intersection of mental health illness
    and homelessness. Many of us have expressed concern on this Committee
    and colleagues that serve on other committees about PTSD, mental health
    counseling and adequate resources to meet the needs of Vietnam combat
    veterans, Gulf War veterans, past wars even prior to those two, and of
    course, our returning veterans. I am wondering if in the counseling
    that your programs have provided, as you get to know and adopt a
    holistic approach to these veterans, to the extent that you can say,
    do you find that more often than not a mental health illness is one
    factor among many that creates the condition that leads to
    homelessness, or that the situation of homelessness exacerbates or
    creates circumstances that lead to mental health illness, to the
    extent that you can say  Mr. Downing. My best judgment would be mental
    health illness, I think, is exacerbated by homelessness. I think mental
    health illness, because we don�t provide at the community level
    necessarily, they have de-funded a lot of services that touch people
    in the community, we have criminalized their behavior.
    Many people are forced into jails and prisons when they are not taking
    their medicines because of their behaviors, and we are picking them up
    on the back side as they re-enter.  That�s number one Number two is
    the chronically mentally ill that we work with, we found that the
    veterans were much better served than people who were non-veterans.
    They were able to get into facilities and get treatment, but the issues
    in some ways remain the same, when an individual refuses medicine and
    acts out, what happens. What we have tried to do is again work in a
    peer group and buddy up veterans with one another so they can -- we
    monitor taking their meds. We buddy them up during the day and have
    them track with one another to create the opportunity to help one
    another and to keep them stable.
    My experience has been that 80-some percent of our people come in with
    a mental health disorder.  It�s serious. Combat related post-traumatic
    stress syndrome, it represents 28 percent of our people.I think the
    other thing we need to recognize, and I think this is a key factor in
    the work that I do, individuals who entered military service, their
    experience in being separated from the primary community of love that
    we normally call family, many of the individuals we work with came
    from very weak families, by being separated out and doing extended
    periods of time in service, and then facing combat and all the issues,
    it seems to me that veterans appear two to three times more homeless
    than non-veterans.If that is true, we must then continue to acknowledge
    that military service has a tremendous stressor attached to it that
    people seem to incorporate into their lives in a way that we don�t
    easily identify until separated from service for five, six, seven or
    eight years, and at that point,we begin to identify there�s a problem.
    We need to become more and more acutely aware.  When I heard Ms. Boone
    talk about what we are doing at the point of separation, the hospital
    that we are attached to, the VA in Northampton, sends a team of people
    over to Westover Air Force Base,which is the primary point of discharge
    for the Reservists from our area, and we are working to get people in.
    The Iraq veterans that have come into our facility came in through
    that process.  It is just a wonderful thing to see because we are able
    to get people back in the first three, five, six days, and not three,
    five and six years.
    That would also be my observation.  Thank you, ma�am.
    Ms. Herseth. Thank you.
    Mr. Pierce. We have coming into our program in MCVET persons from Iraq
    that are suffering from PTSD, but not at a level that has become
    alarming. We do have a high figure of our people who do have chronic
    mental illness associated with an addictive kind of problem, either
    alcohol or drugs. What drove it?  Did alcohol drive the mental illness
    or did the mental illness drive the alcohol? We do know also that
    persons who are homeless suffer from depression. If you are out there
    with nowhere to go, nowhere to live, you are depressed.  I would be.
    It seems that these circumstances are exacerbating that problem.
    We deal with persons that are not VA eligible, and we have persons in
    our program that cannot access VA services, although they are veterans.
    We have to develop other services that will help them, provide the same
    services that VA provides. We are fortunate that we have VA medical
    centers, three of them, within our reach. For those persons who have
    certain kinds of other problems, PSTD is one, gambling is another, we
    can send those persons to other VA centers around the country and they
    can access services there. Iraq veterans, we have had three in our
    program since returning to this country.  They are damaged, they are
    severely damaged.  They are young, nothing older than 23 or 24, and
    cannot really exist in a facility because they are not able to access
    the services mentally. One young man, his job was to clear out Humvee�s
    after they were exploded in Iraq. He was unable to do that. He couldn�t
    stay in our program.  He did not want to be around, did not trust
    people, could not sleep.  We lost him. He just walked away one day.
    That�s the problem. I don�t know whether you can attach what starts it.
    I think other things may exacerbate each other. Ms. Herseth. Votes.
    Just one follow up quickly, Ms. Boone. In your statement for the
    record, you offer a very comprehensive list of legislative
    recommendations for strengthening and expanding the VA�s specialized
    homeless programs and authorities. Are they listed in order of priority?
    Are these recommendations the top priorities for the Coalition?
    Ms. Boone. Of those, reauthorization and expansion, the primary core
    program is the Homeless Providers Grant and Per Diem Program, which is
    a grant program that goes out to community based organizations. As they
    have testified, it is sort of the nugget that starts them.
    That is our primary.  We want to get it reauthorized.  We want the
    minimum level of authorization to be $200 million, and we want it to
    be through fiscal year 2011.If the authorization level does not go up
    from the $99 million it is now, then pretty soon, we are actually not
    going to fund any new programs and eventually because the per diem rate
    rises, we will have to de-fund programs.
    It is very critical that program gets authorized for a higher level.
    We also have some recommendations around how the payment process happens
    to community based organizations. Right now, it is a reimbursement
    process.  The intent, when we helped write the legislation at the
    beginning, was make it a payment process.
    The other thing is you have heard about changing the end of the story
    from Mr. Downing.  We believe there is an opportunity to make some of
    the allowed services to be permanent housing for a certain percentage,
    so that those veterans that may need that service, we would be able to
    provide that through the grant and per diem program.
    Ms. Herseth. Thank you.  Thank you, Mr. Chairman.
    Mr. Boozman. Mr. Evans?
    Mr. Evans. Mr. Chairman, we have a vote, I will keep my questions in
    short order here.
    First of all, I didn�t realize, Linda, you were leaving us so soon.
    Ms. Boone. Yes.  Later, December, or fall. 
    Mr. Evans. We thank you for all your years of service, not only with
    the homeless veterans program, but throughout your career.
    Ms. Boone. Thank you.
    Mr. Evans. You are one of the best cases I know of for helping our
    veterans, and I am very proud to have worked with you over these many years.
    Ms. Boone. Thank you.
    Mr. Evans. Thank you, Mr. Chairman.
    Mr. Boozman. We have votes.  First of all, I want to thank you so much
    again for coming and contributing, appreciate your hard work here on
    the front lines, and truly are doing a tremendous job. We appreciate
    what you are doing for veterans.
    We can go ahead and get started with our next panel. We will recess.
    We only have two votes.  It shouldn�t be bad at all. We will hop on
    over and get back.I apologize for the inconvenience. The only thing we
    have to do here is vote.

[Recess.]

    Mr. Boozman. Again, I apologize for the inconvenience.  Our next panel
    is comprised of Mr. Craig Duehring, Principal Deputy Assistant Secretary
    of Defense for Reserve Affairs, Department of Defense.
    Mr. John McWilliam, Deputy Assistant Secretary for Operations and
    Management, Veterans� Employment and Training Service, Department of
    Labor.  Ms. Cynthia Bascetta, Director of Veterans� Health and Benefit
    Issues, U.S. Government Accountability Office, and Mr. T.P. O�Mahoney,
    Chairman of the President�s National Hire Veterans Committee.
    Again, I welcome you and appreciate your being here. Let�s go down and
    start with Ms. Bascetta.

STATEMENTS OF CYNTHIA A. BASCETTA, DIRECTOR OF
    VETERANS� HEALTH AND BENEFITS ISSUES, U.S. GOV-
    ERNMENT ACCOUNTABILITY OFFICE; CRAIG W. 
    DUEHRING, PRINCIPAL DEPUTY ASSISTANT SECRE-
    TARY OF DEFENSE FOR RESERVE AFFAIRS, DEPART-
    MENT OF DEFENSE; T.P. O�MAHONEY, CHAIRMAN, 
    PRESIDENT�S NATIONAL HIRE VETERANS COMMITT-
    EE, AND JOHN M. McWILLIAM, DEPUTY ASSISTANT 
    SECRETARY FOR OPERATIONS AND MANAGEMENT,
    VETERANS� EMPLOYMENT AND TRAINING SERVICE, 
    DEPARTMENT OF LABOR

STATEMENT OF CYNTHIA A. BASCETTA

    Ms. Bascetta. Thank you, Mr. Chairman, Ms. Herseth.
    I am pleased to be here today to discuss GAO�s views on HVRP, a DOL
    VETS program targeted to homeless veterans. As you know, DOL�s spending
    on HVRP is projected to grow slightly from about $18 million in each
    of the last two fiscal years to a little more than $20 million in 2005
    and 2006.According to VA, about one-third of homeless adults have
    served in the Armed Forces,almost half of homeless veterans have mental
    illnesses, and more than 70 percent have substance abuse problems.
    As you requested, I will focus my remarks today on what available data
    tell us about the effectiveness of HVRP.
    We examined DOL documents, interviewed officials, visited an HVRP
    grantee, and reviewed GAO�s past work on Federal efforts to address
    the needs of homeless veterans. While we did not independently verify
    DOL�s data, we did obtain program information on grantees, participants,
    performance measures, and goals.Starting with finding jobs for homeless
    veterans, DOL sat and entered employment goal is 58 percent for HVRP in
    fiscal years 2004 and 2005.  In other words, DOL expects its grantees
    to place at least 58 percent of homeless veterans in jobs as a result
    of HVRP services.
    They reported to us that for program year 2003, the most current year
    for which data are available, the actual job placement rate was 63
    percent overall, which exceeds the current performance goal as well as
    the planned 61 percent performance goal included in DOL�s fiscal year
    2006 budget. DOL also recognizes that sustained employment is another
    key measure of program effectiveness.  In its March 2005 grant
    solicitation, for example, DOL states that 90 and 180 day follow ups
    with veterans after they enter employment are fundamental to assessing
    the success of the program. They emphasize that grantees must obligate
    sufficient funds prior to the end of the grant performance period to
    ensure that follow up activities are completed as well as reported.
    Two weeks ago, Mr. Chairman, you held another hearing on VA�s
    vocational rehabilitation and employment program, and for that program,
    we also discussed the importance of measuring program effectiveness in
    terms of job retention, not just job placement.
    In fact, DOL, VA and other agencies are working together on common
    measures of job retention for up to 270 days.
    DOL�s requirement for grantees to measure job retention is an important
    step, but the Department has not yet established a performance goal for
    this outcome. Consequently, it�s difficult to know what success is.
    That is what percent of those homeless veterans does DOL expect to
    retain employment and for how long?
    For program year 2003, DOL data showed that almost 60 percent of veterans
    placed in jobs were still working after 90 days, but at 180 days, the
    reported job retention rate had dropped to about 35 percent.
    Our earlier work on homeless veterans could help explain this drop at
    least in part.  For example, homeless veterans with substance abuse
    problems are likely to have high recidivism rates that could
    contribute to lower job retention over time.
    In addition, economic self support may not be a reasonable goal for all
    homeless veterans, such as those with serious mental illnesses that
    cannot be controlled with medication.
    Understanding the effects of factors like these on job retention could
    help DOL develop a basis for establishing reasonable performance goals
    in the future.
    DOL does plan to set a job retention performance goal for fiscal year
    2007, which could provide grantees with incentives to ensure that
    veterans receive longer term follow up services to help them retain
    their employment. The Congress has specifically recognized the
    importance of assessing the outcomes of services provided to homeless
    veterans by requiring DOL to report every two years on the effectiveness
    of HVRP.
    DOL has not met this reporting requirement, but told us that it plans
    to issue its first report by the end of this fiscal year.
    This report and an assessment of DOL�s progress in establishing its
    employment retention goal should help facilitate congressional
    oversight of this important program.
    That finishes my remarks, and I would be happy to answer any of your
    questions.
 
    [The statement of Cynthia A. Bascetta appears on p. 91]
 
    Mr. Boozman. Thank you.
    Mr. Duehring?

STATEMENT OF CRAIG W. DUEHRING

    Mr. Duehring. Thank you, Mr. Chairman, Madam Ranking Member, thank you
    very much for allowing me to come here today.
    Bottom line up front, the Department of Defense supports enactment of
    the Servicemembers Health Insurance Protection Act of 2005 and the
    Servicemembers Taxation Protection Act of 2005, both of which would
    amend several provisions of the SCRA to reflect our experience with
    SCRA during the first 17 months.
    There are three areas.  First, the Servicemembers Taxation Protection
    Act of 2005 would amend Section 511 (c) of the SCRA to make clear that a
    tax jurisdiction may not impose a sales, use, excise or similar tax on
    the personal property of a non-resident servicemember when the laws of
    the tax jurisdiction failed to provide a credit against such sales, use,
    excise or similar taxes previously paid on the same personal property
    to another tax jurisdiction.
    This technical correction is needed to protect servicemembers from
    double taxation.  The problem was most notable when we had significant
    forces assigned to military installations in the Commonwealth of Puerto
    Rico.  It also exists in other state and local jurisdictions.
    The Servicemembers Health Insurance Protection Act of 2005 addresses
    problems we have noted in the SCRA and in USERRA, both relating to
    health insurance.
    Section two of that Act would amend Section 704 of the SCRA to prevent
    unfair rate increases in a returning servicemember�s health insurance.
    The SCRA and USERRA both guarantee to a servicemember who is returning
    to civilian life the right to reinstate civilian health insurance
    policies he or she may have had before departing for military service.
    The SCRA is silent, however, as to the rate at which such reinstated
    coverage is available.  Section two of the Servicemembers Health
    Insurance Protection Act would require reinstated coverage to be made
    available at either the same rate as pre-service coverage or at a rate
    no higher than general increases charged by the carrier for similar
    health insurance.
    Finally, Section three of the Servicemembers Health Insurance Protection
    Act of 2005 offers a technical correction to address two groups of
    servicemembers who fall into gaps in coverage provided by USERRA�s right
    to immediate reinstatement of health coverage.
    First, some Reservists who are notified or alerted that they may be
    called to active duty choose to terminate their employer sponsored
    health coverage early.  That is before entering military service, and
    then enroll in the military TRICARE plan immediately upon notification.
    Since such Reservists technically have no employer sponsored health
    coverage when they actually leave to perform military duty, they are
    not entitled to immediate reinstatement when they return from military
    service.
    Second, other Reservists who are notified or alerted they may be called
    to active duty are not ultimately brought onto active duty.  Under
    existing law, such Reservists who terminate employer sponsored health
    coverage are not entitled to elect immediate reinstatement since they
    actually do not go onto active duty.
    The right of immediate reinstatement is predicated upon serving on
    military duty for some length of time.
    Section three of the bill corrects these gaps in coverage and makes
    clear that both these groups of Reservists are entitled to immediate
    reinstatement in employer sponsored health care plans under Title 38
    U.S.C., paragraph 4317.
    Immediate reinstatement under 4317 is important because it prevents
    gaps in coverage and the potential exclusions for so-called preexisting
    conditions that such gaps in coverage may create.
    The Department of Defense defers to the Department of Labor with regard
    to H.R. 419, the Hire Veterans Act of 2004, and to the Department of
    Labor and Veterans� Affairs with regard to the Homeless Veterans 
    Re-Integration Program Reauthorization Act of 2005.
    I stand ready to take any questions that you have.
 
    [The statement of Craig W. Duehring appears on p. 103]
 
    Mr. Boozman. Thank you.
    Mr. O�Mahoney?

STATEMENT OF T.P. O�MAHONEY

    Mr. O�Mahoney. Good afternoon, Chairman Boozman and Ranking Member
    Herseth.  My name is Terry O�Mahoney.  I am the Chairman of the
    President�s National Hire Veterans Committee, and it is my honor to
    appear before you today and discuss the mission, the goals, and the
    accomplishments of the President�s National Hire Veterans Committee.
    I appreciate the issues connected with transitioning from the military
    and the challenges our veterans face every day searching for employment.
    I, too, am a veteran.
    Also, I had the opportunity to appear before the House Veterans�
    Affairs Committee in support of the Jobs for Veterans Act in 2002,
    the very Act that created the President�s National Hire Veterans
    Committee.
    The House Veterans� Affairs Committee was right in understanding and
    raising the awareness of employers as to the benefits in hiring
    veterans, it was needed then and it is needed today, and will still
    be important tomorrow.
    The President�s National Hire Veterans Committee has been busy promoting
    veterans as the employee of choice to our nation�s businesses since
    its beginning.
    We have launched a national campaign to promote the hiring of veterans
    and transitioning of servicemembers. The strategy focuses on key
    decision makers and hiring authorities in business and the public
    sector.  The strategy takes an unique approach rather than focusing on
    patriotic duty, it emphasizes veterans as a highly valued workforce
    asset.
    My experience as the Commissioner of Labor for the State of Texas, when
    I talked to employers, they wanted two things.  Trained or trainable
    employees.  That is exactly what the veteran gives them.
    The core of our campaign is the www.hirevetsfirst.gov website, which
    offers special zones for employers and veterans. The website and the
    value of hiring veterans has been promoted in banner ads on electronic
    job board websites and a series of advertisement in Business Week and
    HR Magazine for the value of veterans as a first employee of choice.
    Concurrent with the launch of a national marketing campaign, Committee
    members and staff have worked closely with state officials, local
    workforce boards, career one stop centers and veterans� groups
    explaining the mission of the Committee, and the nature of the campaign.
    Coordinating through the veteran employment and training services
    regional and state directors, we encourage the issuance of proclamations
    by individual state governors for a Hire Vets First Month, and I would
    like to report to both the Chairman and Madam Herseth that the
    governors have signed those proclamations.
    Through the end of calendar year 2004, 16 governors proclaimed a Hire a
    Veteran Month and so far in 2005, we have 12 more state proclamations
    issued and others pending.
    This year, we expect all states, the District of Columbia, Puerto Rico
    and the Virgin Islands to issue a proclamation promoting Hire Veterans
    Month.  We are on track to achieve this goal. Among our currently
    appointed Committee members, we have representatives from Home Depot,
    General Motors, Boeing, Regions Bank, Leo Burnett and Medco Health,
    as well as several small businesses.
    The Committee has held regional meetings with strong comments about
    hiring veterans from Ford, Diamler Chrysler, CALPINES, CISCO Systems
    and UPS.  Also, the Committee has received significant assistance from
    our ex officio members from the Department of Defense, Department of
    Veterans Affairs, the Postal Service, the Small Business Association,
    and especially from the Office of Personnel Management.
    Our designated representatives from the VSOs, the SGR, the state and
    local workforce boards, have provided meaningful insight in our mission.
    In particular, we have already taken notice of our Committee member,
    Nick Bacon, who was a top notch soldier and has been absolutely an
    excellent member of our Committee.
    If I may, I would like to mention one incident that highlights the
    unique experience that we have had in placing veterans, and in this
    instance, a disabled Iraqi veteran, Sergeant Alfred Kalous.
    I think if you look at the GI Jobs Magazine, the article in particular
    is Leave No Man Behind, Corporate America Hiring Wounded and Injured
    Soldiers.
    Sergeant Kalous was severely wounded in March of 2003 in Iraq and lost
    his left leg.  While he was back recuperating in Walter Reed Hospital,
    the local DVOP interviewed him.  Sergeant Kalous wanted to return to
    Manhattan, Kansas where he could be an automobile mechanic. The Walter
    Reed DVOP contacted the Manhattan, Kansas DVOP and they arranged for
    Sergeant Kalous to be hired by Lear Seigler who had a maintenance
    contract at Ft. Riley.
    The unfortunate thing about it was that Sergeant Kalous didn�t have
    any tools.  His grand daddy�s tool kit had just about given out, so he
    needed some tools.  At that time, Mac Tools, the largest distributor
    of quality tools, had become a Hire Vet First employer. That
    designation was picked up off our website.
    
    I called Roger Spee, who was the marketing director for Mac Tools, to
    see if he couldn�t help us out.  Mac Tools announced they would award
    Sergeant Kalous a $13,000 full mechanic tool kit, and they also
    announced that they would hire a similar veteran each quarter through
    the remainder of 2005.
    This is just one of many stories which we have been able to generate
    through the Committee.  I fully support the work of this Committee. In
    closing, I commend you for your support in this initiative and the
    President�s National Hire Veterans Committee continues to look forward
    to a strong partnership with the House Veterans� Affairs Committee and
    this subcommittee in its pursuit of creating more job opportunities
    for our nation�s veterans. I look forward to your questions.

    [The statement of T.P. O�Mahoney appears on p. 110]
 
    Mr. Boozman. Thank you, sir.
    Mr. McWilliam?

STATEMENT OF JOHN M. McWILLIAM

    Mr. McWilliam. Thank you.  Chairman Boozman, Ranking Member Herseth,
    it is my honor to appear before this Subcommittee today on behalf of
    Secretary Elaine Chao.  I am the first career Deputy Assistant Secretary
    for the Veterans� Employment and Training Service. My position was
    created by the Jobs for Veterans Act.
    H.R. 419 would extend the President�s National Hire Veterans Committee
    through December 31, 2008. As you know, this Committee was authorized
    by the Jobs for Veterans Act to furnish information to employers with
    respect to the training and skills of veterans and disabled veterans,
    and to facilitate employment of veterans and disabled veterans through
    participation in the national labor exchange.
    We believe it is imperative to connect veterans and employers through
    the use of a nationwide network of one stop career centers.
    The mission of the Department of Labor�s Veterans� Employment and
    Training Service is to help veterans get jobs, get good jobs, and the
    training needed for those jobs. We must commit our resources to best
    serve veterans.
    We constantly strive to do that. We believe that the President�s Hire
    Veterans Committee is fulfilling its mandates of raising employer
    awareness and improving the connectivity of employers with the one stop
    career centers.
    If the Committee decides to reauthorize the President�s Hire Committee,
    we will continue to take it in the direction intended by the Congress.
    Having said that, Mr. Chairman, the Administration has not taken a
    position on this legislation. I do want to reiterate that the
    Department of Labor believes in the work of the Committee. We appreciate
    the foresight of this Committee to introduce the Homeless Veterans
    Re-Integration Program Reauthorization Act, and we fully support the
    extension of this program.
    As you know, HVRP is the only Federal employment program designed
    specifically to address the employment problems faced by our nation�s
    homeless veterans.
    We at the Department of Labor share your commitment to the goal of
    ending chronic homelessness. Like you, we are deeply disturbed by the
    high number of veterans among the homeless population.
    The Department of Labor has made helping homeless veterans a top
    priority. HVRP is our hallmark homeless program within the Department.
    This intervention program provides counseling, job placement and
    training services, as well as helping deliver other funding streams
    that provide supportive services.
    While DOL is proud of the services it is providing to homeless veterans,
    we know that we cannot do it alone. Successful HVRP programs focus on
    partnering with the Departments of Housing and Urban Development,
    Veterans� Affairs, and Health and Human Services, as well as local
    based and community based organizations, social service agencies,
    veterans� service programs, and private organizations.
    Concerning the Servicemembers Health Insurance Protection  Act of 2005,
    we would like to offer to provide technical assistance to the Committee
    on this issue, to clarify the protection from unfair rate increases and
    to ensure that any amendment addresses both the front end and back end
    issues relating to extended TRICARE coverage.
    Concerning the Servicemembers Taxation Protection Act of 2005, the
    Department of Labor generally supports appropriate legislation to
    benefit servicemembers but respectfully defers to the Departments of
    Defense and Veterans Affairs on this matter.
    Mr. Chairman, that concludes my testimony.  I am pleased to respond to
    any questions.

    [The statement of John M. McWilliam appears on p. 123]

    Mr. Boozman. Thank you all very much for your testimony.  We appreciate
    you being here.
    You mentioned the Puerto Rico situation, the double taxation issue
    there. Can you give us some other examples where the double taxation 
    has come up under current law?
    Mr. Duehring. I asked our folks that very question.  They said it is
    resident in Puerto Rico right now. Apparently, there are some other
    states.  I can�t give them to you, where this could occur but it has
    never happened to our knowledge.
    As I mentioned in my testimony, with the decrease in the number of
    soldiers that are going through Puerto Rico nowadays, the problem is
    actually very, very small, almost to non-existent.  It�s a possibility
    it could happen, but there is really no track record now that I can
    point to.
    Mr. Boozman. What does the DOD recommend for an effective date for the
    USERRA amendment to limit premium increases on reinstated health
    insurance?
    Mr. Duehring. Mr. Chairman, we see two options on that.  One is to
    implement it as of the date of enactment of the legislation.  The
    other is to go back to the date of the effective date of order
    provision, which I think is November 24, 2003.  That is the legislation
    that actually opened the gap that we are trying to close.
    Mr. Boozman. Ms. Herseth?
    Ms. Herseth. Thank you, Mr. Chairman, and thank you for your testimony.
    Mr. Duehring, I thank you for your testimony and I appreciate your
    support of the Servicemembers Health Insurance Protection Act, but on a
    related note, I think it was last week or the week before, the
    subcommittee held a hearing on VA�s vocational, rehabilitation and
    employment services that relates to seriously injured servicemembers.
    At the hearing, the VA testified that a memorandum of understanding
    would be signed shortly that dealt with collaboration between DOD and
    the VA, and it would improve the relief and recovery of our seriously
    injured servicemembers.
    I am wondering since the memorandum of understanding spells out the
    policies and procedures to allow the VA access to disabled service
    members for purposes of providing early rehabilitation and recovery
    services, if you know the status of that memorandum of understanding.
    Mr. Duehring. I�m aware of the existence, but I�d like to defer to the
    Department of Labor to see if they have any information on it.  If not,
    I�d like to take that question back and give you a proper answer.

    [DoD/VA Memorandum of Understanding appears on p. 132]

    Ms. Herseth. Thank you.  If you could, I think the representative from
    the VA was going to do the same.
    Ms. Bascetta. I have some information. I received a letter today from
    the Deputy Secretary at VA acknowledging our January report. It was
    their 60 day letter reporting on how they would comply with the
    recommendation, and in that letter, he indicated that as of the 25th of
    April, the MOU has still not been signed. I believe it is at VHA at 
    this time.
    Ms. Herseth. Has DOD signed it?
    Ms. Bascetta. I�m not sure.
    Ms. Herseth. If we could ask you to follow up and then we will ask VHA
    to give us an update as well.
    Mr. O�Mahoney, if you could, just a couple of things.  We received some
    information on the statement of income and expenses for the Hire
    Committee that was provided by the Department of Labor staff.
    I am wondering if either you or Mr. McWilliam could brief us.  It�s not
    very instructive. It doesn�t provide as much detail perhaps that would
    be useful.
    A lot of the money here, out of the total resources for fiscal year
    2004 and anticipated expenditures for 2005, come under marketing and
    contract services and travel. I am wondering if you could spell a
    little bit of this out in terms of how the Hire Committee is utilizing
    its resources to fulfill the mission of the Committee. Mr. McWilliam.
    The marketing and contract services are just that.  They are a contract
    with a contractor that was awarded on a competitive basis to provide
    marketing services to the Committee.
    I will ask T.P. to explain a little bit more of that.
    Mr. O�Mahoney. The contract was let with TMP for less than $500,000.
    With that, we were able to create the website.  We were able to bring
    up the Business Week Wraps. We were able to go ahead and produce the
    folders which you had today.
    I would say that TMP has been about as gracious and efficient
    contractor I have ever worked with, and I think we are more than
    getting our money�s worth.
    Ms. Herseth. Mostly public relations, publications and documents?
    Mr. O�Mahoney. Yes, ma�am.
    Ms. Herseth. The travel, I see a significant increase in terms of
    anticipated expenditures from last year at $30,000, nearly $31,000,to
    this year at $116,000.
    Mr. McWilliam. Ma�am, I believe the $116,000 is an over estimate of
    the travel for the remainder of the year for the Committee meetings.
    That should be somewhere around $40,000.  We submitted that in error.
    The next line down, the next $40,000 of the DVOP/LVER row, is for the
    travel of marketing representatives that we have.
    Ms. Herseth. We may want to seek some clarification after this hearing,
    just to spell this out a little bit more for us.
    On the lines of the DVOP and LVER programs, given the concerns that
    the first panel expressed as advocates on behalf of veterans, if the
    Committee is reauthorized, some of the additional funding would come
    from these chronically under funded programs that serve our veterans
    quite well.
    Mr. McWilliam, what are your thoughts on that?  If you could also talk
    maybe about why -- you alluded to the fact that the Administration hasn�t
    taken a position on the extension, but is that why the Department of
    Labor didn�t request full funding for the Committee, and then also, if
    the Committee isn�t reauthorized, do you think the Department of Labor
    and the Veterans� Employment and Training Service could continue as
    part of its own mission the work of the Committee in light of the prior
    existing relationship with the one stop career centers?
    Mr. McWilliam. Congresswoman, we see the work that is done by the
    Committee as extending the work, the business outreach work of the
    LVERs who are at the career one stop centers.  It takes it from the
    grassroots level to the national level.
    The funding for the President�s Hire Committee has come as we submitted
    currently from the state grants of approximately $500,000 a year, and
    the remainder from other internal sources that we have within Vets.
    The $500,000 from the DVOP and LVER program from the state grants, each
    year the states are unable to obligate 100 percent of the funds that we
    allocate to them through the service.  The $500,000 represents about
    three-tenths of one percent, and we don�t feel that has a significant
    impact upon the funding for that program.
    Ms. Herseth. Thank you.  Thank you, Mr. Chairman.
    Mr. Boozman. Thank you.
    Looking at the financial report of the program and listening to
    Ms. Herseth and counsel, I think what I would like to see, and I think
    they would also, is a much more detailed report of this.
    If you all could provide that, it would be very helpful.
    Mr. McWilliam. We can, Mr. Chairman, certainly.
    Mr. Boozman.  Thank you very much.
    The previous panel, one of the individuals, and if you all have any
    input into this, one of the things that came up was one of the gentlemen
    said he felt like it was difficult to provide services in such a way
    
    that he could really -- you almost really had to treat the whole person.
    That kind of resonated with me.  It does seem like it is difficult to
    perform this part of the function and then somebody else is doing this,
    and yet, all that ties together with what is going on with them.
    Can anybody comment on that?
    Mr. McWilliam. Mr. Chairman, I think for the homeless programs, as you
    heard today from the two HVRPs that are very successful, they are
    masters at doing that, and integrating mental health, addiction
    problems, housing, and then finally, employment.  They are real keys on
    that. We think there is a lot to be learned from these best practices
    from these certain HVRPs, and we are putting together a manual so that
    when we have our annual meeting of all the grantees, that we can
    provide the best practices to them.
    During the break, we were talking with your staff on exactly how to
    approach that and how to package that so that the really good best
    practices from these HVRPs can be used by all of them.
    Ms. Bascetta. I would agree with that.  In our work not only on homeless
    veterans but on temporary assistance for needy families, other people
    with disabilities who are in programs to help them achieve self
    sufficiency, a case management approach where a team of people with
    different sets of expertise works together and help a person along all
    the milestones seems to be one of the most effective ways to achieve
    the goals.
    Mr. Boozman. Ms. Bascetta, you mentioned the absence of performance
    measures.  When will the Department complete the requirements?
    Ms. Bascetta. They do have measures.  They have job placement measures and
    they are actually measuring job retention at 90 and 100 days.  What
    they don�t have yet is a goal for retention, which means that in terms
    of overall performance, what percentage of the individuals who obtain
    jobs were able to retain that employment over some period of time.
    I believe they have indicated they are going to set such a goal for the
    2007 program year.
    Mr. Boozman. We certainly appreciate all of the panels being here today
    and appreciate your testimony.  It has been very, very helpful.
    I want to remind the Committee that we will have a mark-up in the
    morning.  It shouldn�t take very long at all.
    The meeting stands adjourned.  Thank you very much.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]

</pre></body></html>
